No.

lfn ~be

~upreme (!Court of tbe tltlniteb ~tates
GENERAL ELECTRIC COL\1IPANY,

Petitioner,
V.

UNITED TECHNOLOGIES CORPORATION,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF SERVICE

I, Gregory G. Garre, counsel for Petitioner General Electric Company and a
member of the Bar of this Court, hereby certify that on the 12th day of February,
2020, I caused to be served three (3) copies of the Petition for a Writ of Certiorari in
the above-referenced case by first-class mail, postage prepaid, upon counsel as listed
below:
Patrick J. Coyne
Finnegan, Henderson, Farabow, Garrett & Dunner, LLP
901 New York Avenue, NW
Washington, DC 20001-4413

(202) 408-4000

patrick.coyne@finnegan.com

Counsel for Respondent

Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Petition for a Writ of Certiorari was transmitted to the above-listed
counsel at the referenced email address.
I further certify that all parties required to be served have been served.

By

~ J-1.

Gregory G. Garre
LATHAM & WATKINS LLP
55511th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com

Counsel for Petitioner

2

.r\flh"t,#14

